    Office of Inspector General
    Audit Report




      Audit Report on the
National Association of Minority
          Contractors



      Report Number: 1999 - 00213

            August 23, 1999
Inspector General Division
 Conducting the Audit:       Mid-Atlantic Audit Division
                             Philadelphia, PA


Program Offices Involved:    Office of Small and
                             Disadvantaged Business
                             Utilization
                             Washington, D.C.

                             Grants Administration
                             Division
                             Washington, D.C.
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                         OFFICE OF INSPECTOR GENERAL
                              MID-ATLANTIC DIVISION
                                  1650 Arch Street
                        Philadelphia, Pennsylvania 19103-2029
                                    (215)814-5800




                                      August 23, 1999

MEMORANDUM

SUBJECT:      Audit Report on the
              National Association of Minority Contractors
              Grant Number X-824519-01
              Report Number: 1999 - 00213


FROM:         Carl A. Jannetti
              Divisional Inspector General for Audit
              Mid-Atlantic Division (3AI00)

TO:           Jeanette L. Brown, Director
              Office of Small and Disadvantaged Business Utilization (1230A)

              Gary M. Katz, Director
              Grants Administration Division (3903R)

Attached is our audit report on the Environmental Protection Agency (EPA) grant number
X-824519-01 awarded to the National Association of Minority Contractors (NAMC). The
audit was performed because of an anonymous Hotline complaint received by the Office of
Inspector General (OIG) alleging poor grantee performance and a mismanagement of EPA
grant funds. The grant was awarded by EPA’s Office of Small and Disadvantaged Business
Utilization (OSDBU). The purpose of our audit was to: determine whether NAMC
performed the required work; evaluate the adequacy of OSDBU’s oversight; and identify any
mismanagement of EPA funds.

This audit report contains findings that describe problems the OIG has identified and
corrective actions the OIG recommends. This audit report represents the opinion of the OIG.
Final determinations on matters in this report will be made by EPA managers in accordance
with established EPA audit resolution procedures. Accordingly, the findings contained in this
report do not necessarily represent the final EPA position.
RESULTS-IN-BRIEF

Although NAMC completed only a small portion of the work required by the grant it
received, OSDBU allowed NAMC to draw down all of the $750,000 in grant funds resulting
in a mismanagement of EPA funds. This occurred in part because OSDBU did not
adequately monitor NAMC’s performance under the grant.

In the middle of the project, EPA approved an amendment to the grant allowing NAMC to
replace conferences with needs assessments. According to EPA Order 5700.1, for this work
to be performed under a grant, EPA can receive only incidental benefit from the grantee’s
efforts. Because the work plan indicated that needs assessments would be done at states and
EPA regions, before approving the work plan, Agency personnel should have determined how
much benefit EPA would receive from the NAMC work. Also, had EPA adequately
monitored NAMC’s work, it would have realized that NAMC conducted needs assessments
primarily at EPA regions and that EPA received more than incidental benefit from this work.
As a result, EPA allowed NAMC to inappropriately conduct contract work under the grant
because NAMC’s work benefitted EPA.

RECOMMENDATIONS

We recommend the Director of OSDBU require her staff to manage grant projects in
accordance with the EPA Assistance Administration Manual. To that end, OSDBU project
officers should ensure recipients comply with the terms of the agreement, and that the draw
down of federal funds is proportional to the recipients’ rate of progress.

We recommend the Director of OSDBU monitor recipients’ work to ensure that contract
work is not completed under a grant.

AGENCY COMMENTS AND OIG EVALUATION

OSDBU partially concurred with our first recommendation whereby it agreed to implement
procedures to better ensure recipients comply with the terms of the agreement. However,
OSDBU contends that it can not implement the second part of the recommendation which is
to ensure the draw down of funds is proportional to the recipient’s rate of progress. In
addition, OSDBU disagreed with several important aspects of the finding such as whether
there was a misuse of grant funds and the adequacy of OSDBU’s oversight of NAMC.

OSDBU and Grants Administration Division (GAD) agreed with the intent of our draft
finding entitled EPA Should Have Awarded A Contract Instead Of A Grant, but contend that
the draft report did not accurately characterize the scope of work for the grant. OSDBU
responded that the decision to include needs assessments as part of the grant was appropriate
for grant funding. OSDBU acknowledged that the actions it took may have inadvertently
contributed to NAMC’s misunderstanding of their legal relationship with EPA. However,
 they maintained that the approved amendment was proper for grant funding and that EPA
only received incidental benefit from NAMC’s work.

Based on EPA’s response to the draft report and the results of our exit meeting, we made the
appropriate modifications to our report and recommendations. We summarized the comments
received from EPA and NAMC after the findings. However, our position remains unchanged
on the report findings and we do not agree that EPA only received incidental benefit from
NAMC’s needs assessment work. To the contrary, EPA received most of the benefits derived
from NAMC’s needs assessment work. This occurred because OSDBU did not adequately
monitor NAMC’s work.

Both EPA and NAMC’s responses included comments pertaining to the financial part of our
audit work. These matters, relating to the allowability of costs, will be addressed in a separate
financial report to be issued at a later date.

ACTION REQUIRED

This report contains recommendations to the Directors of OSDBU and GAD. We designated
the Director, OSDBU, as the primary action official because OSDBU was the EPA office
responsible for monitoring NAMC’s performance. As the primary action official, the
Director, OSDBU should take the lead in coordinating the Agency’s response.

In accordance with EPA Order 2750, the Director, OSDBU is required to provide us with a
written response to the audit report within 90 days of the audit report date. The response
should address all recommendations, and include milestone dates for corrective actions
planned, but not completed. Should the action official consider a position that differs from
our recommendations, we would appreciate the opportunity to discuss management’s
position.

We have no objection to the further release of this report to the public. If you or your staff
have any questions regarding this report, please contact me or Patrick Milligan at (215) 814-
5800.

Attachment
[This page was intentionally left blank.]
                                                 TABLE OF CONTENTS


PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OSDBU ALLOWED NAMC FULL PAYMENT
    FOR LIMITED WORK . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
         NAMC’s Performance Was Inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
         Project Status . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
         Lax Oversight Resulted In Mismanagement of EPA Grant Funds . . . . . . . . . . 6
    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

EPA ALLOWED NAMC TO CONDUCT CONTRACT WORK
     UNDER A GRANT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
     RESPONSES TO THE DRAFT REPORT
          EPA’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
          NAMC’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

APPENDIX 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
     DISTRIBUTION
PURPOSE

This audit was initiated because of an anonymous OIG Hotline complaint alleging NAMC’s
poor performance and a mismanagement of grant funds. The purpose of our audit was to
assess:

       Ë      NAMC’s performance under the grant,

       Ë      the adequacy of OSDBU’s oversight of NAMC, and

       Ë      whether there was a mismanagement of grant funds.

BACKGROUND

NAMC is a nonprofit trade association established in 1969 to address the needs and concerns
of minority contractors, with a particular focus on assisting those businesses involved in the
construction industry. To carry out its mission, NAMC provides assistance to minority
contractors mainly through training and outreach. NAMC currently has about 5,000 members
and conducts three annual membership conferences. Since 1986, NAMC received $4.6
million through EPA grant awards.

In 1995, Congress earmarked $500,000 for OSDBU to oversee two activities: 1) monitor
states’ efforts to assist minority firms in obtaining contracting opportunities; and 2) perform
outreach on environmental justice activities. Congress mandated that these activities be
carried out by a nonprofit minority organization that has experience with OSDBU’s culturally
diverse programs. On September 25, 1995, OSDBU awarded NAMC the $500,000 in
earmarked funds. NAMC was required to conduct five state studies and ten opportunity
exchange conferences covering all ten EPA regions. The grantee had from October 1, 1995
to March 31, 1997 to complete the project.

The state studies were to assess the adequacy of each state’s program for making contracting
opportunities available to small and disadvantaged contractors. The exchange conferences
were to inform minority contractors of impending contracting opportunities. For the grant
work plan, OSDBU allowed NAMC to follow its proposal verbatim. NAMC awarded the
Minority Business Enterprise Legal Defense and Education Fund (MBELDEF) a $161,000
contract to perform the five state studies. With assistance from consultants, NAMC was to
conduct the ten conferences.

On January 9, 1997, three months prior to the expiration of the project, NAMC proposed to
perform additional work. Specifically, NAMC proposed doing five additional state studies
and two needs assessments at EPA regions. These assessments were intended to determine
what EPA and the states needed to do to ensure that it provided ample contracting



                                               1                      Report No. 1999 - 00213
opportunities to minority businesses. On March 12, 1997, OSDBU awarded NAMC a
$250,000 increase to perform this additional work.

SCOPE AND METHODOLOGY

We conducted an audit of NAMC’s performance and reviewed EPA’s award and
administration procedures. The scope of our work was limited to activities conducted by
NAMC under the grant, and on EPA’s program management aspects of the grant as they
related to the program office, OSDBU. We also conducted a financial audit of the costs
claimed by NAMC under this Assistance Agreement.

We performed our audit in accordance with the Government Auditing Standards (1994
Revision) issued by the Comptroller General of the United States. However, we did not
follow all of the elements of the planning standards in Chapter 6 because we initiated this
audit as a result of an OIG Hotline allegation. Instead, our work focused on confirming the
Hotline issues raised in the complaint. The audit included tests of the program records and
other auditing procedures we considered necessary. Other than the issues discussed in this
report, no other significant program management issues came to our attention that warranted
expanding the scope of our performance audit.

Our review of NAMC’s internal controls was limited to assuring compliance with federal
criteria and with NAMC’s policies and procedures. Also, we reviewed the Single Audit
Reports prepared by NAMC’s independent auditors for fiscal years 1993 through 1996. This
last audit included an assessment of NAMC’s internal control structure for the period ended
March 31, 1996. Because of the inherent limitations in any system of internal controls, errors
or irregularities may occur and not be detected. Except for the issues discussed in this report,
nothing came to our attention that would cause us to believe that internal control review
procedures pertaining to our program management audit were inadequate.

To accomplish our audit we reviewed EPA’s policies and procedures for administrating
grants and the requirements specified in the grant agreement. We used EPA Order 5700.1
titled Policy for Distinguishing Between Assistance and Acquisition, the Code of Federal
Regulations Part 30, and the Assistance Administration Manual as criteria for conducting this
review. Also, we interviewed program officials from EPA Headquarters, NAMC and their
contractor MBELDEF.

Our audit began on July 7, 1998 and ended on November 30, 1998. We conducted our audit
at EPA Headquarters, NAMC, and MBELDEF. We reviewed records maintained by the
Agency, NAMC, and MBELDEF. These records included the grant application, the grant
agreement, amendments, progress reports, deliverables, and other project files. We also
reviewed NAMC’s compliance with the program and financial reporting requirements of the
grant.



                                               2                       Report No. 1999 - 00213
We issued the draft report on March 12, 1999. OSDBU submitted a consolidated response on
May 26, 1999, which included comments from OSDBU, GAD, and NAMC. We included all
of the responses as Appendix 1 to this report. Because NAMC’s response was voluminous,
we did not include the exhibits that were provided with its response. These exhibits are on
file in our office and available upon request. NAMC’s response included comments on
financial issues described in the draft report. Our evaluation of these comments will be
included in a financial report which we will issue separately. We conducted an exit
conference with OSDBU, GAD, and the EPA’s Office of General Counsel on June 7, 1999.

PRIOR AUDIT COVERAGE

An EPA OIG audit report, Special Review on Assistance Agreements Administered by the
Office of Small and Disadvantaged Business Utilization (E3FMP2-03-0364-3400017), issued
on January 25, 1993 addressed topics similar to those discussed in this report.




                                            3                     Report No. 1999 - 00213
                      OSDBU ALLOWED NAMC FULL PAYMENT
                              FOR LIMITED WORK

Although NAMC completed only a small portion of the work required by the grant it
received, OSDBU and GAD allowed NAMC to draw down all of the $750,000 in grant funds
that EPA provided. OSDBU also approved time extensions that nearly doubled the length of
the project, but resulted in NAMC completing no additional work. EPA’s Assistance
Administration Manual (the Manual) requires that project officers perform sufficient oversight
of the grantee by ensuring:

       Ë       projects are on schedule,

       Ë       the grantee complies with the grant deliverables, and

       Ë       EPA receives a complete final product.

Also, the Manual authorizes the award official to withhold payment for noncompliance. If the
project officer is dissatisfied with a grantee’s performance, it can request the award official to
withhold payment.

In 1993, we performed an audit of OSDBU grants awarded to NAMC totaling about $1.6
million. NAMC was to provide training to prepare minority businesses to enter the
environmental field. We found that OSDBU did not adequately monitor NAMC’s
performance and NAMC provided ineffective training. At that time, we recommended that
OSDBU perform sufficient oversight of grant projects, and ensure OSDBU project officers
are adequately trained to effectively oversee the grantee.

Five years later, we again found OSDBU performed poor oversight of the current assistance
agreement, and that inadequate work was performed by NAMC. OSDBU did not adequately
monitor NAMC’s performance, and did not recommend that GAD withhold grant funds when
NAMC failed to perform sufficient work. As a result, there was a mismanagement of EPA
funds. OSDBU needs to hold the grantee accountable for the grant funds, perform sufficient
oversight, and recommend GAD withhold funds when sufficient work was not completed.

NAMC’s Performance Was Inadequate

The type and amount of work OSDBU required NAMC to perform, and the time frames in
which to complete the work went through several changes during the 33-month project
period. The following schedule of grant deliverables shows revisions to the project and the
status of work at the end of the project period.




                                                4                      Report No. 1999 - 00213
                             Schedule of Deliverables Required By:

                                                                             Deliverables for
                                  Original
                                                                                $750,000
                               $500,000 Grant              Grant              as of June 98
                                                         Amendment
                             As of         As of          $250,000
                            Sept. 95      Jan. 97*        March 97       Required      Completed
   Conferences                  10            3              0                3              2
   State Studies                 5            5              5               10              3
   Needs Assessments             0            4              2                6              0
       * OSDBU approved an informal change in work, replacing seven conferences with four needs
       assessments. The number of State studies remained the same.

To meet the original grant requirements, NAMC planned each conference to be a full day in
length, with a projected audience of about 200 minority contractors. The implementation plan
included a schedule of the cities selected, proposed dates for the conferences, and topics that
would be addressed.

By October 1996, or within the first 12 months of the original 18-month project period,
OSDBU allowed NAMC to draw $498,500 of the $500,000 EPA awarded under the grant.
However, at that time, NAMC completed only one of the ten conferences, and instead of the
expected full day conference, NAMC filled only a two-hour time slot. NAMC participated in
a second two-hour conference six months later, in March 1997.

We do not believe EPA received what it paid for under the grant because NAMC could not
have provided the same quantity and quality of information to minority contractors in two
hours as it should have in a full day conference. Moreover, MBELDEF completed only three
of the five state studies contracted for, yet NAMC paid MBELDEF $161,000. This was the
full value of the contract awarded to MBELDEF to perform the state studies.

Near the end of the original project period, NAMC changed the scope of work to do four
needs assessments instead of seven conferences. OSDBU approved this change even though
it did not meet the intent of the original grant and cost substantially less to perform. On
March 12, 1997, OSDBU awarded NAMC an additional $250,000 to conduct two more
needs assessments and five more state studies, even though NAMC completed only a small
portion of the work required under the original award. NAMC again contracted MBELDEF
to conduct the second set of five studies for $165,000, or approximately $33,000 per study.
The remaining $85,000 was for NAMC to perform two needs assessments and to monitor
MBELDEF’s work.




                                                     5                        Report No. 1999 - 00213
Within six months of EPA awarding the amendment, $230,000 of the $250,000 had been
expended by NAMC, yet it had completed no needs assessments or state studies. Between
March 1997 and June 1998, NAMC initiated some work, but did not provide EPA with any of
the required final products, thereby providing no value to the minority contracting community
for the $250,000 it received. Specifically, NAMC gathered data for three state studies that
were not completed, and held two meetings with EPA officials regarding needs assessments.

Project Status

At the close of the project, the OSDBU Project Officer said she did not have a clear
understanding of what work was required or completed. In total, EPA received three state
studies and two inadequate conferences for $750,000. OSDBU approved three time
extensions for a total of 15 months, however, the extensions resulted in no more conferences
or studies. NAMC still had not completed either the eight conferences or the six needs
assessments, as well as seven state studies.

Lax Oversight Resulted In Mismanagement of EPA Grant Funds

OSDBU received progress reports during the first 12 months of the original project and was
aware that the project was not near completion. In evaluating whether to award NAMC the
$250,000 amendment, OSDBU did not consider NAMC’s poor performance under the
original grant. The amendment significantly reduced outreach coverage from ten EPA
regions to three by replacing conferences with needs assessments. NAMC officials described
the needs assessments as a half-day meeting with EPA regional officials. We believe that for
a needs assessment, NAMC would expend significantly less than what a full day conference
would cost. Furthermore, EPA’s lax oversight regarding the needs assessments resulted in
contract work being performed under the grant. This is discussed further in the next finding.

Besides not completing the required work, NAMC did not comply with the cost sharing
requirements of the grant it received from EPA. Again, OSDBU took no action to ensure
NAMC complied with the grant terms. The grant agreement EPA executed with NAMC
required it to fund the project with about $40,000 of its own money. However, NAMC only
incurred costs equal to the funds provided by EPA, and did not fund the project with any of its
own money as required by Chapter 14 of EPA’s Assistance Administration Manual.

Recommendation

We recommend the Director of OSDBU require her staff to manage grant projects in
accordance with the EPA Assistance Administration Manual. To that end, OSDBU project
officers should ensure recipients comply with the terms of the agreement, and that the draw
down of federal funds is proportional to the recipients’ rate of progress.




                                              6                      Report No. 1999 - 00213
NAMC RESPONSE

From the very beginning of the grant, there were inordinate and sometimes inexplicable
delays in moving the project forward, especially in generating correspondence from OSDBU
to the regions and the states. Also, there were delays in the subsequent replies and scheduling
of the various site visits, needs assessments, and other contacts. Therefore, NAMC requests
that the IG recommendation include the opportunity to complete the remaining work with no
additional EPA funds needed.

As of the time the IG’s audit commenced in July 1998, four state studies, one conference and
four needs assessments remained to be completed. MBELDEF has completed three state
reviews in full and substantially completed three others, needing only the data analysis and
report. NAMC has instructed MBELDEF to complete the analysis and prepare a report for
the additional three states and submit it to EPA as soon as possible. It is anticipated that this
report will be submitted within the next few weeks. NAMC had also completed two needs
assessments. The fact that no minutes or reports were written for those needs assessment
meetings does not impact the fact that they took place. As in the case of the conferences, the
deliverable was the event itself.

With cost sharing, there is no requirement that the grantee contributions spread over the life of
the project and it is common practice for grantee contributions to be utilized at the end of
grants after direct grant funds have been expended.

OIG EVALUATION

We did find some evidence of delays, however, not to the extent NAMC contends. Moreover,
if NAMC did experience delays in excess of one year which prevented it from holding
conferences and performing state studies, all $750,000 should not have been drawn down.

We disagree with NAMC regarding work that needs to be completed. As depicted in our
report, seven studies (not four) and six needs assessments (not four) still need to be
completed. Additionally, in NAMC’s April 22, 1999 response to the draft report, they
anticipated the final report for three additional state studies would be completed and
submitted to EPA within the next few weeks. As of August 17, 1999, four months later,
OSDBU still had not received the report. Moreover, we disagree that the deliverable for the
needs assessments was solely the event itself. It is not sufficient that a meeting took place. At
a minimum, there needs to be a written record of what was discussed and how this
information will benefit minority contractors.

During the audit, NAMC personnel stated they and MBELDEF had incurred cost share
expenditures and were to provide us with documentation. In response to our draft report,




                                                7                      Report No. 1999 - 00213
NAMC has changed its position and contends the cost share was to be incurred at the end of
the project period after all EPA funds had been spent. We disagree and believe EPA should
have required NAMC to expend its initial cost share before awarding the $250,000
amendment. Moreover, NAMC could have demonstrated a good faith commitment by
incurring some cost share expenditures during the course of the project period, particularly
when it realized much of the work would not be completed.

AGENCY RESPONSE

OSDBU partially concurred with our first recommendation whereby it agreed to implement
procedures to better ensure recipients comply with the terms of the agreement. To ensure
grants are managed in accordance with the EPA Project Officer Training Manual, OSDBU
officials implemented a project officer checklist in August 1998. Based on a discussion with
the OIG, this checklist was updated in February 1999. OSDBU has also: established an
automated system to track the status of grants, scheduled staff members for project officer
training, and began a review to determine if project officer responsibilities should be
reassigned.

The OSDBU Director does not agree that project officers can ensure the draw down of funds
is proportional to the recipient’s rate of progress. The Director further explained that the
Government made a conscious policy decision to allow recipients to draw down payments in
advance under the Automated Clearing House (ACH) method. One of the unintended
consequences of the policy choice is situations described in the Draft Report where the
recipient is able to draw down funds at a rate greater than its progress towards completion of
the assisted activity. Also, under current assistance regulations and the terms and conditions
for ACH, OSDBU’s project officers do not routinely receive payment or financial status
information that can be used in conjunction with recipient progress reports. Absent a change
in Government wide policy, however, OSDBU can only recommend to GAD that payments
be withheld or that the Agency impose a special term and condition when specific
circumstances indicate the need for the project officer to have authority to deny payment
requests.

The draft audit report states, in bold letters, that “Negligent Oversight by OSDBU Resulted in
Misuse of EPA Grant Funds.” This conclusory statement is unsupported by the facts and is
unnecessarily pejorative. The report states that funds were misused, but it does not state how
the funds were misused. The draft audit does not appear to dispute that NAMC actually
incurred the costs charged to the grant. NAMC has offered to complete the project without
additional funds from EPA, and on this basis, argues that the vast majority of the $636,069
will be eligible costs under the agreement. Absent additional information indicating that
NAMC spent the funds for improper purposes, it appears that if NAMC completes the grant
work no funds will have been misused.




                                               8                     Report No. 1999 - 00213
Regarding oversight of NAMC, the Project Officer generally understood what was required
under the scope of work, but felt that she would have to review her files to describe the work
in detail and address the amount of work actually completed.

For Headquarters awards, the servicing financial management center reviews the recipient’s
Final Financial Status Report to assure the recipient did, in fact, meet any cost sharing
requirement. Therefore it was not appropriate to state that OSDBU took no action to ensure
compliance.

Regarding whether EPA considered NAMC’s poor performance before awarding a $250,000
amendment, OSDBU did consider the grantee’s poor performance, but both OSDBU and
GAD decided to approve no-cost extensions and award the funding increase based on
NAMC’s assurances that the project would be completed.

Concerning the criteria used in the report, GAD officials replied that the Assistance
Administration Manual is dated and that we should cite the EPA Project Officer Training
Manual as the guidance for managing assistance agreements. Also, the Agency has not made
a final decision on whether to accept NAMC’s proposal to complete the activities provided
for in the grant at no cost to EPA.

OIG EVALUATION

Both EPA and NAMC’s responses included comments pertaining to the financial part of our
audit work. These matters, relating to the allowability of costs, will be addressed in a separate
financial report.

OSDBU’s actions to improve project management should result in better recipient
performance. However, regarding the project officer’s monitoring of draw downs, we do not
agree that draw down information is unavailable to the project officers. Part of the project
officer training guidance toward effective grant administration requires attention to draw
downs. GAD’s grant specialists can provide project officers with a report on draw down
information. Recently, the project officers also have access to draw down information
through the EPA Intranet.

At no time during the project period did the OSDBU Project Officer request draw down
information. Had she requested this information and compared it to NAMC’s rate of
progress, she could have recommended to GAD that payments be withheld until sufficient
work had been completed. We are not recommending that project officers receive authority to
deny payment requests. If project officers are dissatisfied with a grantee’s performance
during the project period, they need only employ existing procedures by recommending to
GAD to withhold payment.




                                               9                       Report No. 1999 - 00213
After considering OSDBU’s response, we still maintain that the funds were misused because
all of the grant money was drawn down, yet a substantial amount of work had not been
completed. This constitutes a misuse of funds in our minds because so little of the grant
requirements were completed. As for OSDBU’s oversight, the Project Officer did have her
file when we met, however, she could not provide us with an account of what work was
required, completed or still remained. Had the OSDBU Project Officer adequately monitored
NAMC’s performance throughout the project period, she would have realized that NAMC
had not contributed any of its cost share. Moreover, the OSDBU Project Officer could have
discussed with NAMC its plans to meet the cost share obligation before awarding the
$250,000 amendment.

With respect to whether EPA considered NAMC’s poor performance before awarding the
amendment, there was no documentation regarding NAMC’s assurances that the project
would be completed. Morever, if NAMC did provide assurances to OSDBU, it would not
have been prudent for OSDBU to accept the assurances considering NAMC’s past
performance.

The EPA Project Officer Training Manual is more current and may be the more appropriate
guidance for project officers to follow. However, GAD has not officially implemented it as
the criteria to follow. Also, the Training Manual is written and formatted for classroom
instruction, not as Agency policy. GAD needs to officially implement the Training Manual
before the Assistance Administration Manual can be superceded. In any event, the issues and
requirements in the Assistance Administration Manual are still valid and provide a basis for
adequate grants administration.

We do not agree with granting NAMC a no-cost time extension to complete the work
required under the grant. NAMC has drawn down all of the EPA grant funds and has still not
completed a large portion of the work. It is not reasonable to expect that NAMC could
deliver a timely, quality product when all of the grant funds have been expended.




                                             10                     Report No. 1999 - 00213
            EPA ALLOWED NAMC TO CONDUCT CONTRACT WORK
                          UNDER A GRANT

In the middle of the project, EPA approved an amendment to the grant allowing NAMC to
replace conferences with needs assessments. The work plan defined a needs assessment as a
consultation providing assistance and developing strategies for EPA and states. However, the
needs assessment work that NAMC completed mostly involved EPA, not the states.
According to EPA Order 5700.1, for this work to be performed under a grant, EPA can
receive only incidental benefit from the grantee’s efforts. Because the work plan indicated
that needs assessments would be done at states and EPA regions, before approving the work
plan, Agency personnel should have determined how much benefit EPA would receive from
the NAMC work. Also, had EPA adequately monitored NAMC’s work, it would have
realized that NAMC conducted needs assessments primarily at EPA regions and that EPA
received more than incidental benefit from this work. As a result, EPA allowed NAMC to
inappropriately conduct contract work under the grant because NAMC’s work benefitted
EPA. Moreover, there was no evidence that OSDBU or GAD evaluated the proposed
amendment to assess whether the work should be funded as a grant or a contract.

In the proposed amendment, NAMC stated it had already performed one needs assessment
which it defined as a meeting with EPA regional officials. The attendees of the first needs
assessment were NAMC and EPA personnel (including the Project Officer). NAMC could
not have intended states to be the principal beneficiary because there were no state personnel
at the meeting. In addition, OSDBU correspondence to another EPA Region recommended
that Regional officials meet with NAMC to ascertain the areas of support the Region needed
to expand and augment its efforts. Again, there was no mention of states in the OSDBU
memorandum.

EPA Order 5700.1 (the Order) provides that EPA should award grants when the work will
principally benefit the public. The ten conferences that NAMC was originally required to
perform were properly funded through a grant because the conferences were to provide
benefit to the public. Minority contractors would benefit from learning about how and where
to improve their chances of receiving federally-funded contracts.

Conversely, the Order states that surveys, studies, and research which gather specific
information desired by the Agency for its direct benefit must be funded through a contract.
However, the work plan approved by EPA made no distinction between the benefit to be
received by EPA or the states. According to the Order, OSDBU was required to make the
initial determination on whether the work should have been funded as a grant or a contract.
However, OSDBU officials said they did not consider whether NAMC’s proposed change in
the scope of work should have been funded as a contract.




                                              11                      Report No. 1999 - 00213
Before approving the amendment, OSDBU should have instructed NAMC to revise the work
plan to indicate that the states would be the primary beneficiary of the work. Because the
work plan was not revised, the Project Officer needed to more diligently monitor NAMC’s
performance to ensure needs assessments focused on states. However, there was no evidence
that the Project Officer performed oversight to ensure the needs assessments predominantly
benefitted the states.

Chapter 15 of EPA’s Assistance Administration Manual requires that GAD process
applications for formal amendments in the same manner as initial grant applications. GAD
uses a checklist for reviewing initial grant applications that does address the issue of contract
versus grant; however, they said that they do not complete this checklist for amendments. Our
review confirmed GAD’s assertion because for NAMC’s amendment, we found no
documentation that GAD conducted a review of the proposed amendment.

Recommendations

We recommend the Director of OSDBU monitor recipients’ work to ensure that contract
work is not completed under a grant.

We recommend the Directors of GAD and OSDBU require their staffs to evaluate whether
work proposed under grants and subsequent amendments, should be obtained by grant or
contract. These reviews should be performed and documented to ensure compliance with
EPA Order 5700.1.

AGENCY RESPONSE

Both OSDBU and GAD agreed with the intent of our draft finding entitled EPA Should Have
Awarded A Contract Instead Of A Grant, but argued that the draft report did not accurately
characterize the scope of work for the grant. OSDBU believed that the decision to include
needs assessments as part of the grant was within the range of discretion accorded by legal
and policy standards. GAD stated that the statement of work for the amendment appears to
constitute work that is appropriate for grant funding. OSDBU acknowledged that the actions
it took may have inadvertently contributed to NAMC’s misunderstanding of their legal
relationship with EPA. However, they maintained that the approved amendment was proper
for grant funding and that EPA only received incidental benefit from NAMC’s work.

OIG EVALUATION

We have revised our description of the scope of work. However, we do not agree that EPA
only received incidental benefit from NAMC’s needs assessment work. To the contrary, EPA
received most of the benefits derived from NAMC’s needs assessment work. This




                                               12                      Report No. 1999 - 00213
 occurred because OSDBU did not adequately monitor NAMC’s work. As a result, our
position that this work should have been funded by a contract remains unchanged.




                                         13                    Report No. 1999 - 00213
         APPENDIX 1

RESPONSES TO THE DRAFT REPORT




             14             Report No. 1999 - 00213
EPA’s Response




     15          Report No. 1999 - 00213
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                                      OFFICE OF
                                                                                               SMALL AND DISADVANTAGED
                                                                                                BUSINESS UTILIZATION




                                                   May 26, 1999



MEMORANDUM

SUBJECT: Response to Office of the Inspector General
         Draft Audit Report on the National Association of Minority Contractors
         No. E6DEA8-03-0025 (Dated March 12, 1999)

FROM:           Jeanette L. Brown, Director
                Office of Small and Disadvantaged Business Utilization

TO:             Carl A. Jannetti
                Division Inspector General for Audit
                Mid-Atlantic Division

        This is in response to your request for comments on the subject draft report. The draft
report designates the Director, Office of Small and Disadvantage Business Utilization
(OSDBU) as the primary action official for the subject Draft Audit Report (Draft Report).
OSDBU worked with the Grants Administration Division (GAD) and the Office of General
Counsel (OGC) to develop a consolidated response to the draft report. We appreciate your
staffs courtesy in providing extensions of time to respond fully to the draft report, and look
forward to working with you in resolving this matter.

        As you requested, we have addressed the factual accuracy of the draft audit report and
have indicated our concurrence or nonconcurrence with each finding and proposed
recommendation. Our response is Attachment 1 to this memo. Additionally, counsel for the
National Association of Minority Contractors (NAMC) submitted a response to the draft
report dated April 22, 1999, which we include as Attachment 2.

      Any questions or comments on this response should be addressed to David Sutton,
Deputy Director, OSDBU. David may be reached on (202) 260-4471.

Attachments


                                        Internet Address (URL) Ž http://www.epa.gov
         Recycled/Recyclable Ž Printed with Vegetable oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)
                                                                             Attachment 1



OFFICE OF SMALL AND DISADVANTAGED BUSINESS UTILIZATION AND
GRANTS ADMINISTRATION DIVISION RESPONSE TO DRAFT AUDIT REPORT No.
E6DEA8-03-0025 (Dated March 12, 1999).

I. ADDITIONAL FACTS.

A. The principal purpose of EPA financial assistance to NAMC for Needs Assessments.

         The March 12, 1997 amendment to the NAMC agreement did not authorize NAMC to
perform needs assessments that “were intended to determine what EPA needed to do to ensure
that it provided ample contracting opportunities to minority businesses ” as asserted at p. 1 of the
Draft Report. The Draft Report contends that “[t]he work plan described needs assessments as a
consultation with EPA regional officials to discuss what EPA must do to ensure minority
contractors receive a sufficient amount of contracting opportunities.” Draft Report, p. 8. In fact,
NAMC’s January 9, 1997 work plan for the needs assessments focused on consultation between
NAMC and both EPA-regional and state environmental officials “to determine how best to
provide further assistance through the OPEX program to the states and regions in question; and
development of state and/or region-specific strategies for implementation in subsequent OPEX
program years.” (1/9/97 NAMC proposal at 3.0.).

         The acronym “OPEX” refers to NAMC’s disadvantaged business outreach and
opportunity exchange conferences relating to utilization of disadvantaged businesses by states in
procurement under EPA grant programs. Therefore, the intent of EPA’s financial assistance for
this activity was to help NAMC meet the needs of the states and the disadvantaged business
community served by NAMC’s OPEX conferences, rather than the Agency’s needs. These
activities are appropriately carried out under an assistance agreement.

B. OSDBU’s alleged negligence.

        The draft audit report states on p. 6, in bold letters, that “Negligent Oversight by OSDBU
Resulted in Misuse of EPA Grant Funds.” This conclusory statement is unsupported by the facts
and is unnecessarily pejorative. It is apparently based on the following inaccurate factual
assertions.

1. “Although NAMC completed only a small portion of the work required by the grant it
received, OSDBU allowed NAMC to draw down all of the $750,000 in grant funds that EPA
provided.” Draft report at p. 1.


       Under the grant’s terms and conditions, NAMC was paid under the Automated Clearing



                                                 2
                                                                               Attachment 1




House (ACH) method of payment. Under this method, the project officer (PO) and the grants
management officer (GMO) do not see the payment requests either before or after payments are
made. The recipient sends the requests directly to the servicing finance office and the requests do
not include any supporting financial documentation. Therefore, OSDBU did not have access to
information that would enable it to monitor the rate at which NAMC drew down grant funds.

2. “At the close of the project, the OSDBU project officer stated that she did not have a clear
understanding of what work was required or completed.” Draft report at p. 6.

       The Project Officer generally understood what was required under the NAMC scope of
work, but felt that she would have to review her files to describe the work in detail and address
the amount of work actually completed.

3. “OSDBU received three progress reports during the first 12 months of the project and was
aware that the project was not near completion. In evaluating whether to award NAMC the
$250,000 amendment, OSDBU did not consider NAMC’s poor performance under the original
grant.” Draft report at p. 6.

        OSDBU did consider that NAMC was behind in completing the work, but OSDBU/GAD
granted NAMC no- cost extensions and the funding increase based on assurances from NAMC
that the work would be completed.

4. “Besides not completing the required work, NAMC did not satisfy the cost sharing
requirements of the grant it received from EPA. OSDBU took no action to ensure NAMC
provided the required cost share.”

        The required cost share for this project was 5%, but it is the recipient’s responsibility to
meet its cost sharing requirement as it draws down the EPA grant through the ACH. For
Headquarters awards, the servicing financial management center reviews the recipient’s Final
Financial Status Report (SF 269) to assure the recipient did, in fact, meet any cost sharing
requirement. Therefore, it was not appropriate to state that OSDBU took no action to ensure
compliance.


5. Misuse of Grant Funds.

       The Draft report demonstrates that NAMC did not complete the work it agreed to
perform



                                                  3
                                                                              Attachment 1

 under the grant despite drawing down all of the funds obligated for the project.1 However, the
Draft audit does not appear to dispute that NAMC actually incurred the costs charged to the
grant. NAMC has offered to complete the project without additional funds from EPA, and on this
basis, argues that the vast majority of the $636,069 that the Draft Report recommends that the
Agency disallow will be eligible costs under the agreement. Absent additional information
indicating that NAMC spent the funds it obtained under the grant for improper purposes, it
appears that if NAMC completes the grant work no funds will have been misused. We will, of
course, verify individual items of cost when the final audit report is issued.

C. Technical Suggestions for the Audit. The Director, GAD has the following suggestions.

Page 4, first paragraph– It would be preferable to replace this reference to the Assistance
Administration Manual (as well as those following) with “Project Officer’s Training Manual”.
The PO training manual is the most current guidance available for managing assistance
agreements.

Pg 4, second paragraph–The report states that the Manual authorizes the project officer to
withhold payment. Only the award official can withhold payment (see 40 CFR 30.902).

Pg 4, third paragraph–The report states that funds were misused, but it does not state how the
funds were misused. If they were used for project expenses, this does not appear to be a misuse
as we understand the term. If the funds were misused, the report needs to make clear how they
were inappropriately used.

Pg 4, third paragraph–The report states that OSDBU should only approve draw downs if
sufficient work is completed. Project Officers do not have an opportunity to approve or
disapprove draw downs. They can monitor draw downs and work with the Award Official to
stop or delay payments.

Pg 5, last paragraph to Page 6–A grant is not a contract, so its principal purpose is to benefit the
recipient and its constituents, not EPA. The sentence that states “thereby providing no value to
the Agency” should be removed. The recipient is to carry out its project, not the Agency’s and
the Agency is not to be the principal beneficiary. It seems to us the report implies that the award
should be annulled in accordance with 40 CFR 30.904 (a)(5) because it failed to meet the project
purpose. If that is the case, you should revise it to reflect that approach. On the other hand, if the
work the recipient did with the funds was for the work under the grant, then the report should
question the costs based on reasonableness or other problems, or explain how the funds were
used.



       1
           NAMC’s response does not take issue with this conclusion.

                                                  4
                                                                            Attachment 1




Pg 11, second paragraph–We do not agree that because the time sheets were nearly identical, the
time keeping system was inadequate, nor do we believe that time sheets need to be signed daily to
meet the intent of OMB Circular A-122.

Pg 11, third paragraph–We do not agree that the fact that NAMC allows its employees a one hour
lunch is necessarily unacceptable. If that practice is consistent with NAMC’s personnel practices
in other cases, it would be inappropriate to disallow this cost.

II. FINDINGS AND RECOMMENDATIONS


Finding: OSDBU Allowed NAMC Full Payment For Limited Work

Additional Facts. As discussed above, neither the OSDBU PO nor the GAD Grants Specialist
received “real time” information on the rate at which NAMC drew down funds. This situation is
not limited to OSDBU project officers. The Government made a conscious policy decision to
allow recipients to draw down payments in advance under the ACH method. This decision
struck a balance which gave greater weight to the recipient’s need for immediate access to funds
to carry out grant supported activities than to agencies’ ability to compare draw downs with
progress towards completion of the funded activity. One of the unintended consequences of the
policy choice is situations described in the Draft Report where the recipient is able to draw down
funds at a rate greater than its progress towards completion of the assisted activity.


Recommendation:

         The Director, Office of Small and Disadvantaged Business Utilization should require her
staff to manage grant projects in accordance with the EPA Assistance Manual. To that end,
OSDBU project officers should ensure recipients comply with the terms of the agreement, and
that the draw down of funds is proportional to the recipient’s rate of progress.

OSDBU Position:

        The Director, OSDBU partially concurs with this recommendation. The Director agrees
that grant projects should be managed in accordance with the EPA Project Officer Training
Manual and that project officers should ensure recipients comply with the terms of the agreement.
(It is GAD’s position that the training manual is the Agency’s most current guidance with respect
to Project Officers’ roles and responsibilities. The Assistance Manual is similar, but dated.)
However, under the current Government-wide assistance regulations and standard



                                                 5
                                                                            Attachment 1

Agency terms and conditions for ACH, OSDBU’s POs do not routinely receive payment or
financial status information which can be used in conjunction with recipient progress reports to
ensure that draw downs are proportional to the recipient’s rate of progress .

        The Director agrees that additional procedures that would allow OSDBU to implement
the OIG’s recommendation are desirable. Absent a change in Government wide policy, however,
OSDBU can only recommend to GAD that payments be withheld or that the Agency impose a
special term and condition when specific circumstances indicate the need for the PO to have
authority to deny payment requests that are not proportional to the recipient’s rate of progress.

        To ensure grant projects are managed in accordance with the EPA Project Officers
training Manual, the Director, OSDBU has taken the following steps:

       - Implemented a project officer checklist in August 1998. Based on discussions with the
Auditors, this checklist was updated in February 1999 and a copy was provided to the auditors.

       - Established an automated system to track the status of OSDBU grants in August 1998.

       - Scheduled staff members for project officer training to be held June 2-3, 1999.

       - Began a review of office responsibilities to determine whether project officer duties
should be reassigned. This action should be completed by June 30, 1999.

       - Began a review of OSDBU’s remaining four grants. OSDBU expects to complete this
review by June 30, 1999. All four grantees are paid under the “Advance Payment” method.
Under this method of payment, recipients draw down funds on an as needed basis. However, as
was the case with the NAMC grant, these requests for payment do not come to the project officer
for approval.

        OSDBU has a new Director and a new Deputy. Both individuals recognize and have
reemphasized the importance of grants management and will continue to monitor operations to
ensure grants are managed in accordance with EPA regulations and guidance and the EPA Project
Officers Training Manual. In situations where Project Officers determine that grantees are not in
compliance with grant terms and conditions, OSDBU will work with GAD and OGC to determine
whether payments can/should be withheld, the agreement terminated, or special terms and
conditions imposed.


Recommendation:

       The Director of the Grants Administration Division should adjust the allowable costs in
accordance with the IG’s determination and require NAMC to repay EPA $636,069.


                                                 6
                                                                              Attachment 1




GAD Position:

        The Director, GAD is not taking any action with respect to allowing or disallowing costs
in response to this draft audit report. GAD will work with the recipient and the appropriate EPA
offices in determining the actions that should be taken with respect to the costs when the final
audit report is issued.

        The Agency has not made a final decision on whether to accept NAMC’s proposal to
complete the activities provided for in the grant at no cost to EPA. However, we are considering
their proposal. In view of the number of changes in the MBE/WBE environment since the
inception of this grant, there is an even greater need for this work to be done. Therefore, we are
immediately beginning a dialogue with the regions to determine which states could benefit most
from the additional work. It is necessary for us to move out on this immediately to make sure we
don’t contribute to additional delays and to complete the project as soon as possible. We would
like to meet with you to discuss this issue as soon as possible, preferably during the second week
of June 1999. Please contact David Sutton at (202) 260-4471 to let him know when you would
be available to have this discussion.

Finding: EPA Should Have Awarded A Contract Instead of A Grant for the Needs
Assessments that NAMC performed.

Additional Facts: As discussed above, the principal purpose of the needs assessment activity was
to obtain information that would enable NAMC to conduct OPEX conferences that were
responsive to the interests of disadvantaged businesses and states. EPA did derive some indirect
or incidental benefits from the needs assessment activity. However, the Agency’s “Policy for
Distinguishing Between Assistance and Acquisition” EPA Order 5700.1 (3/22/94) states “...there
may be cases where EPA expects to derive some incidental use or benefit from funded activities.
Such incidental use or benefit does not preclude an award of assistance when the principal
purpose is public support or stimulation. For such cases, an assistance vehicle may still be
appropriate. . . If an expenditure will produce a benefit or use that is not direct, a contract is not
required.” EPA Order 5700.1, p. 6 (emphasis in original). EPA Order 5700.1 also recognizes
that the unique role that state officials have as partners with the Agency through shared
operational responsibilities for environmental efforts. EPA Order 5700.1, p. 8.

Recommendation:

       Evaluate whether work proposed under grants should be obtained by grant or contract.
These reviews should be performed to ensure compliance with EPA Order 5700.1.



                                                  7
                                                                             Attachment 1




OSDBU Position:

        The Director, OSDBU concurs with the intent of this recommendation, however the
Director contends that OSDBU’s decision to include needs assessments as part of the grant was
within the range of discretion accorded by legal and policy standards. The Draft Report does not
accurately characterize the scope of work for the grant. It does not provide evidence sufficient to
conclude that the needs assessments were principally for EPA’s direct use or benefit. OGC and
GAD concur with this position.

         Project officers are aware of the requirement to evaluate work to make sure it should be
obtained by grant or contract and will continue to make the evaluations on all future awards.
Notwithstanding OSDBU’s disagreement with the findings in the Draft Report, the Director
recognizes that NAMC and, its sub-awardee, MBELDF, may have misunderstood the nature of
their legal relationship with EPA while carrying out the grant. The Director acknowledges that
actions taken by OSDBU may have inadvertently contributed to the misunderstandings. Although
the Agency has not made a final decision on whether to accept NAMC’s proposal to complete the
activities provided for in the grant at no cost to EPA, if the proposal is accepted, OSDBU will
make it clear that any activities NAMC undertakes to complete the agreement must directly
benefit minority businesses and states rather than EPA.

        The Director, GAD, also concurs with the intent of the recommendation, but does not
agree the Grants Specialist was mistaken in approving the amendment. It is the Director’s view
that the statement of work for the amendment appears to constitute work that is appropriate for
support of grant funding and consistent with the requirements of the Federal Grant and
Cooperative Agreement Act. It is GAD policy that specialists review amendments to assure any
change in the scope of project is not for the direct use and benefit of EPA. It may be, if the grants
specialist indicated differently, that the specialist was not considering the case where the
amendment would change the work plan’s scope.




                                                 8
NAMC’s Response




      24          Report No. 1999 - 00213
Law Offices


HOLLAND & KNIGHT LLP                                              Atlanta             Orlando
2100 Pennsylvania Avenue, N.W.                                    Boca Raton          San Francisco
Suite 400                                                         Fort Lauderdale     St. Petersburg
Washington, D.C. 20037-3202                                       Jacksonville        Tallahassee
202-955-3000                                                      Lakeland            Tampa
FAX 202-955-5564                                                  Miami               Washington, D.C.
http://www.hlkaw.com                                              New York            West Palm Beach


                                                                 ROSS W. DEMBLING
                                                                 202-457-5953
    April 22, 1999
                                                                 Internet Address:
                                                                 rdemblin@hklaw.com



    VIA HAND DELIVERY

    Ms. Jeanette Brown
    United States Environmental Protection Agency
    Director, Office of Small and Disadvantaged
     Business Utilization (OSDBU)
    401 M Street, S.W. Mail Code 1230
    Washington, D.C. 20460

              Re:       Draft Report of Audit on EPA Grant Awarded to the
                        National Association of Minority Contractors Grant
                        Number X-824519-01 Draft Report Number E6DEA 8-03-0025

    Dear Ms. Brown:

           On behalf of the National Association of Minority Contractors (“NAMC”), I
    am hereby forwarding the written comments of NAMC to the above-captioned
    Draft Report. These comments are submitted to you and your office as directed
    by Carl A. Jannetti, Divisional Inspector General for Audit, Mid-Atlantic
    Division in his March 12, 1999 letter forwarding the draft report.

          Please feel free to contact me or Samuel A. Carradine should you have
    any questions or concerns regarding this submission.

                                              Sincerely yours,

                                              HOLLAND & KNIGHT LLP


                                              Ross W. Dembling
    RWD/kh
    Enclosure
    FCH1 #10273 v1
Ms. Jeanette Brown
April 22, 1999
Page 2


cc:   Carl A. Jannetti (w/encl.)
      Divisional Inspector General for Audit
      U.S. Environmental Protection Agency
      1650 Arch Street
      Philadelphia, PA 19103-2029
       Comments on Draft Report Number E6DEA 8-03-0025 (March 12, 1999)
                          (Grant Number X-824519-01)

        The National Association of Minority Contractors (“NAMC”), together with
its subgrantee, the Minority Business Enterprise Legal Defense and Education
Fund (“MBELDEF”) is pleased to provide its comments on Draft Report Number
E6DEA 8-03-0025 (“Draft Report”) issued by the Mid-Atlantic Division of the Office
of Inspector General ("IG“). For the reasons set forth below, NAMC believes that
certain of the findings of the Draft Report are based on a mistaken or incomplete
view of the performance of the grant by NAMC and MBELDEF. Moreover, the
Draft Report fails, on several significant occasions, to consider fully the impact of
the EPA's program office mission requirements and the collateral impact on the
grant performance requirements. Consequently, NAMC respectfully contends that
the final recommendation contained in the draft report is unfounded. NAMC,
together with MBELDEF, continues to be ready, willing, and able to fully complete
the grant, in full conformity with the expectations of the EPA program office and
with the Congressional mandate that authorized and funded the grant.

        The comments contained herein are provided in five parts: a Background
section, which includes a discussion and clarification of the work that has been
performed to date by NAMC and its subgrantee, MBELDEF and the tasks that are
yet to be completed; a discussion of Scheduling and Other Performance Impact
Problems that have caused delays in completion of the tasks, a discussion of The
Legal Framework around which the grant is structured, which has implications
for the interpretation of work requirements, work completed, and the rationale for
being allowed to complete the work; a Summary Recommendation by NAMC
with justifications as to why and how the work might be completed; and a last
section on Specific Findings, Cost Questions and NAMC Responses.

BACKGROUND

       In September, 1995, NAMC submitted a grant proposal to the EPA’s Office of
Small and Disadvantaged Business Utilization entitled “A Proposal To Conduct
Compliance Monitoring, Outreach and Opportunity Exchange (OPEX) Conferences
Related to State Utilization of DBES For EPA-Granted Procurement.” NAMC
submitted the proposal in response to the mandates of the House Appropriations
Subcommittee set forth in House Report No. 103-555. In this Report, the
Appropriations Subcommittee earmarked funds to be used as follows:

       $500,000 for OSDBU's environmental justice and monitoring efforts.
       The Committee directs that these funds be split between activities for
       monitoring of states' eight percent goal efforts and outreach of
       environmental justice activities to be carried out by a non-profit
            minority organization with a proven track record with OSDBU's minority
            programs. House Report 103-555 (accompanying H.R. 4624) (FY 95
            appropriation) June 22, 1994 at page 49.

           In its proposal, NAMC outlined its intended collaboration with the
   MBELDEF to meet the Congressional mandates of this program. The proposal set
   forth the experience and expertise that both organizations had for this endeavor,
   thereby establishing that the work would be done by a “non-profit minority
   organization with a proven track record with OSDBU's minority programs.” The
   proposal also noted that NAMC had been a grantee to EPA for five years and had
   successfully provided training for over 2,000 minority and women contractors and
   their employees in a variety of complex environmental subjects, including asbestos
   abatement, lead-based paint abatement, underground storage tank removal and
   installation, radon mitigation and hazardous waste removal/Superfund health and safety.
   Additionally, as part of these grants, NAMC conducted trade fairs in which numerous
   prime contractors could network with disadvantaged business enterprises (DBEs) that
   had completed the training. This networking fostered the goals of one of OSDBU's
   primary missions -- to introduce the large companies and DBEs to each other for joint
   venture and subcontracting opportunities.

          NAMC's submission also set forth the proposed budgets of both NAMC and
   MBELDEF. (Copies of the proposed budgets are set forth at Appendix A, attached
   hereto). OSBDU awarded the grant on September 25, 1995 incorporating, fully and
   without change, NAMC's proposal.

           As originally awarded, the grant envisioned that NAMC would conduct Outreach
   Activities and Opportunity Exchange (“OPEX”) conferences in each of EPA’s ten
   regions (“OPEX I”). Additionally, there were to be five in-depth state studies. The
   original 18 month project period extended from October 1, 1995 through March 31,
   1997. In early, 1996, EPA made changes to these tasks. Seven of the ten OPEX
   conferences were replaced by four needs assessments. The number of state studies
   remained unchanged (“OPEX II”). While this change in the work was not formally
   issued by an amendment to the Grant, there does not appear to be any dispute by the I.G.
   that this change indeed had been made. (See page 4 of the Draft Report at
   footnote *).

          By Amendment No. 1 to the Grant dated January 30, 1997, the project period
   was extended by six months - from March 31, 1997 through September 30, 1997. Prior
   to September 30, 1997, the grant period was again extended to June 30, 1998.

           On March 12, 1997, OSDBU increased the funding for the Grant by $250,000.
   This funding was to support two additional needs assessments and five more state
   studies. Significantly, despite the 50% increase of needs assessments and 100%

FCH1 #10142 v1                              2
   more state studies than originally contemplated, the project period was not extended at
   that time.

           From the very beginning of the grant, there were inordinate and sometimes
   inexplicable delays in moving the project forward, especially in generating
   correspondence from EPA to the regions and the states and in the subsequent
   replies and scheduling of the various site visits, needs assessments, and other
   contacts. Although the grant was signed on September 25, 1995, it was not until
   early February of 1996 that the states for the first round of compliance monitoring
   had been preliminarily identified. Letters were sent by EPA/OSDBU to state
   environmental offices in the District of Columbia, New York, Oregon and Kansas
   on March 12, 1996, indicating that they had been selected for compliance
   monitoring by the NAMC/MBELDEF team and copies of these letters were sent to
   the appropriate Regional Administrators. As late as September 25, 1996, more
   than one year after the grant had been signed, initial letters from Leon Hampton of
   EPA/OSDBU were going out to Regions II, VII, and VIII indicating that NAMC
   would be contacting them regarding setting up a needs assessment meeting.
   Because of staffing changes in the New York region (Region II), NAMC was not able to
   contact the appropriate person to schedule a meeting until November of 1996,
   and the actual meeting did not occur until July 1997. In the case of the District of
   Columbia, neither NAMC or EPA have been able to determine the appropriate office
   within District government with whom we might meet to discuss the OPEX grant
   and EPA's desire to include the District as one of the locales for a compliance
   monitoring effort.

            We should point out that the compliance monitoring activities under the
   OPEX grant did not necessarily meet with enthusiasm by the state environmental
   agencies, especially for those states who were well below meeting their utilization goals.
   It is therefore understandable that there might have been some foot
   dragging by the states on the various approvals and scheduling associated with this effort
   and this did play a part in the delays.

           As of the time the I.G.'s audit commenced in July, 1998, four state studies,
   one conference and four needs assessment remained to be completed. In the case of
   the state compliance monitoring reviews, MBELDEF has completed three state
   reviews in full and substantially completed three others, needing only the data
   analysis and report. NAMC has instructed MBELDEF to complete the analysis
   and prepare a report for the additional three states and provide it to NAMC for
   submission to EPA as soon as possible. It is anticipated that this report will be
   submitted within the next few weeks. NAMC had also completed two needs
   assessments and, upon EPA/OSDBU approval, are in position to conduct two more
   needs assessments immediately.



FCH1 #10142 v1                               3
           The following summary recounts those tasks that were assigned to
   MBELDEF under OPEX I & II, those tasks that have been completed to date and
   those tasks that are not yet completed.

   ASSIGNED TASKS FOR OPEX I & II

         The following tasks were assigned to MBELDEF under each of its State
   Compliance Reviews for implementation of the Grant:

            1.   Initiate contact with state environmental protection agency personnel
                 identified by U.S. EPA.

            2.   Send document request to state environmental protection agency.

            3.   Schedule and conduct site visits at state offices to review and collect
                 documents.

            4.   Schedule and conduct interviews of state personnel responsible for
                 program implementation.

            5.   Conduct interviews of prime contractors and MBE/WBE subcontractors.

            6.   Conduct contract file analysis of sample state environmental contracts.

            7.   Draft written report summarizing findings and recommendations for the
                 states under review for the current round of OPEX Compliance Reviews
                 (i.e., OPEX I or OPEX II).

   TASKS COMPLETED TO DATE FOR OPEX I & II

         As of the date of this memorandum, MBELDEF has undertaken and
   completed the following tasks for states identified by U.S. EPA under OPEX I and
   OPEX II Compliance Reviews:

            1.   Initiated Contacts With State Personnel

                 A.     OPEX I (Florida, Louisiana, and Ohio)
                 B.     OPEX II (New Jersey, North Dakota, Texas)




FCH1 #10142 v1                               4
            2.     Sent Document Requests

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (New Jersey, North Dakota, and Texas)

            3.     Completed Site Visits and Document Collection

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (New Jersey, North Dakota, and Texas)

            4.     Interviewed State Personnel Responsible for Program Implementation

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (New Jersey, North Dakota, and Texas)

            5.     Completed Interviews of Prime Contractors and MBE/WBE
                   Subcontractors

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (New Jersey, North Dakota, and Texas)

            6.     Completed Contract File Analysis

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (none)

            7.     Completed Draft Reports

                   A.     OPEX I (Florida, Louisiana, and Ohio)
                   B.     OPEX II (none)*

            [*The Draft Report for OPEX II States is on hold pending direction from EPA as
            to which States are to be included in the analysis for this round of Compliance
            Reviews.]

   UNFINISHED TASKS FOR OPEX II

          All tasks for OPEX I have been completed by MBELDEF. The following tasks
   under OPEX II Compliance Reviews are not yet completed by MBELDEF:




FCH1 #10142 v1                               5
            1.   The State of New Jersey

                 A.      Contract File Analysis
                 B.      Drafting of Report

            2.   The State of North Dakota

                 A.      Contract File Analysis
                 B.      Drafting of Report

            3.   The State of Texas

                 A.      Contract File Analysis
                 B.      Drafting of Report

            4.   The State of Colorado

                 A.      All seven tasks outlined in first section of this memorandum.

            5.   The State of Tennessee

                 A.      All seven tasks outlined in first section of this memorandum.

   SCHEDULING AND OTHER PERFORMANCE IMPACT PROBLEMS

           There were numerous modifications by the EPA to the list of states originally
   designated for Compliance Reviews under OPEX I and OPEX II. Moreover, there
   were a number of states that were targeted for these Compliance Reviews that, for a
   variety of reasons, were withdrawn, added back to the list, and withdrawn again as
   subjects for the Compliance Reviews.

           It is critically important to appreciate the adverse impact caused by the delay
   in identification of participating states and the associated projects. The needs
   assessments and conference sites were driven by the decisions on which states
   would have state studies. For no needs assessments or conferences would be
   conducted in those states in which a state study was to be conducted. In the
   absence of clear identification of states matched with the project to be conducted the
   entire project was necessarily delayed.

           That is precisely what occurred during this grant. The identification of
   where the state studies would be conducted were on critical path. Delays in this
   identification delayed everything. Likewise, the states in which a needs assessment
   would be conducted traveled on a parallel critical path. If the needs assessment
   states could be identified, such state would not have a state study. But again, any

FCH1 #10142 v1                                6
   delay in the clear identification of either the state study or needs assessment
   location delay everything scheduling is similar to a construction project's critical
   path method (CPM) of planning and management. This method organizes and
   schedules the numerous interrelated separate small tasks that make up a complex
   project. Some of the tasks may be done at any time during a given period without
   having any effect on completion of the entire project. Some tasks, however, must be
   performed on schedule and in sequence else the entire project will be delayed.
   These latter tasks are on the “critical path.” Any delay of work along the critical
   path will adversely affect the entire project.

          There was a lack of cooperation from Colorado and the District of Columbia
   in scheduling initial site visits, interviews with state personnel, and document
   review. For example, the District of Columbia was initially projected as a subject
   for Compliance Review in the first round of OPEX I. However, the District
   Government failed to communicate with the EPA and identify contact persons for
   the District's environmental protection offices that had possession of crucial
   contract files. Consequently, this Compliance Review was postponed to OPEX II.
   These problems with the District Government remain unresolved and this
   Compliance Review remains impossible to complete for reasons beyond the control
   of NAMC, MBELDEF, or the EPA.

          Similarly, there were significant delays as EPA sought to establish initial contacts
   with some of the states to facilitate initial site visits by NAMC/MBELDEF. These delays
   were caused by various circumstances, most notably, apparent lack of cooperation with
   EPA by state administration officials.

           As a result, NAMC's and MBELDEF's planned allocation of manpower was
   severely impacted. The overall efficiency in scheduling of tasks suffered greatly.
   Staff that had initially been trained and dedicated to this project subsequently left
   or were assigned to other projects. Due to the increased length of this project, labor
   and overhead costs for this project soared far above what had initially been
   projected in the budget submitted for this project. NAMC and MBELDEF both had
   to retain personnel and consultants to be available for the completion of this project,
   even though the project was not continuing at the desired pace.

   THE LEGAL FRAMEWORK

           At the outset, it is essential to appreciate that a grant is fundamentally
   different from a procurement contract in a variety of ways relevant to this matter.
   Pursuant to the Federal Grant and Cooperative Agreement Act, a grant instrument
   is required to be used when

                 (1) the principal purpose . . . is to transfer a thing of value
                 to the . . . recipient to carry out a public purpose of support

FCH1 #10142 v1                                7
                    or stimulation authorized by a law of the United States. .
                   .; 2)substantial involvement is not expected between the
                   executive agency and the . . . recipient when carrying out
                   the activity contemplated in the agreement.

   31 U.S.C. § 6304.

   This is in contrast to a procurement contract, which is to be used when

                   (1) the principal purpose . . . is to acquire (by purchase,
                   lease, or barter) property or services for the direct use of the
                   United States Government; or (2) the agency decides in a
                   specific instance that the use of a procurement contract is
                   appropriate.

   31 U.S.C § 6303.

           Thus, with a procurement contract, there is a mutual exchange of benefits -- the
   Federal Government's funds for the contractor's services or products. There is
   no similar mutuality of benefit exchange in a grant. The Federal Government does
   not receive a direct benefit in return for the funding; rather, the benefit flows away
   from the Government to the grant recipient for the broader stimulation and support
   of the public purpose fostered by the grant program.

           Grant funds are, of course, not without some rules imposed by the
   Government. The Draft Report quite correctly identifies those governing principles
   that are applicable to the subject grant. It is important to note, however, that the
   various cost principles are subject to considerably more flexibility than
   procurement contract cost principles. For example, where a grantee has not kept
   adequate records, evidence of satisfactory progress on the grant may nevertheless justify
   a limited “presumption of regularity” since by inference the grantee must have incurred
   some allowable expenses. B-186166, August 26, 1976.

            Indeed, the U.S. Comptroller General has noted that

                   It consistently has been held with reference to Federal grant
                   funds, that when such funds are granted to and accepted by
                   the grantee, the expenditure of such funds by the grantee
                   for the purposes and objects for which made [is] not subject
                   to the various restrictions and limitations imposed by
                   Federal statute or our decisions with respect to the
                   expenditure, by Federal departments and establishments, of
                   appropriated moneys in the absence of a condition of the
                   grant specifically providing to the contrary.


FCH1 #10142 v1                                  8
   43 Comp. Gen. 697, 699 (1964).

           The request that NAMC, together with MBELDEF, be permitted to continue
   performance of the grant by completing the four state studies, one conference and
   four needs assessments is in the best interests of the EPA as well as the minority
   business community - the true beneficiaries of this grant program. The very core of
   NAMC's mission precisely parallels the Congressional mandate articulated in the
   grant legislation to monitor and promote the EPA OSDBU's minority programs.
   Depriving the NAMC of the opportunity to complete its important work under the grant,
   by requiring a repayment of over $636,000 would be a disservice to this
   mandate and the missions of OSDBU and NAMC.

           Granting NAMC the opportunity to continue the grant performance would
   not be inconsistent with appropriate grant management. Indeed, the Comptroller
   General has approved crediting indebtedness arising from disallowed grant costs by
   crediting the indebtedness against allowable indirect grant costs. This has been
   accomplished by requiring the recipient to document that it was expending the
   amount of earned costs on approved program grants, thus maintaining the agreed-upon
   performance level. See, for example, B-186166, August 26, 1976.

           Moreover, it must be emphasized that NAMC does not seek additional grant
   funds to complete performance, only the opportunity to perform using the funds
   already provided. In those cases in which a grantee has not received the full
   funding before the disallowance of costs, the granting agency typically withholds
   the release of the funds, subject to further performance.

                 The theory behind withholding is that where a grantee
                 has misapplied grant funds, or in other words, where a
                 grantee's costs are disallowed, the grantee has in effect,
                 spent its own money and not funds from the grant.
                 Withholding may be viewed as the determination that an
                 amount equal to the disallowed costs remains available for
                 expenditure by the grantee and is therefore carried over
                 into the new budget period.

   Principles of Federal Appropriations Law,(2nd ed.) GAO/OGC-92-13, page 10-92.

           There can be no question that the recording of time on a daily or more
   frequent basis is the most desirable from a strict accounting standpoint. Likewise,
   no question has been (or could be) raised that the personnel costs were not, in fact,
   incurred. As was noted above, the Comptroller General has approved a
   “presumption of regularity” in the face of inadequate records, where, as here, there
   is a clear inference that the grantee must have incurred the costs. B-186166, supra.
   Consistent with this presumption of regularity, the costs are indeed supported.

FCH1 #10142 v1                               9
           By its nature, the determination of reasonable costs is largely a factual one.
   The Draft Report does not specify what it is about those costs that lead to the
   allegation of unreasonableness, other than to tie the payments to the amount of
   work performed under the grant.

           The Draft Report further alleges that certain costs are not allocable under
   the principles set forth in OMB Circular A-122. Reference to the definition of an
   allocable cost in the Circular reveals that the I.G. has misinterpreted the nature of
   allocability in the grant context. The Circular provides that

                  a.     A cost is allocable to a particular cost objective, such
                  as a grant, contract, project, service or other activity, in
                  accordance with the relative benefits received. A cost is
                  allocable to a Federal award if it is treated consistently with
                  other costs incurred for the same purpose in like
                  circumstances and if it:

                  (1)    Is incurred specifically for the award.

                  (2) Benefits both the award and other work and can be
                  distributed in reasonable proportion to the benefits
                  received, or

                  (3) Is necessary to the overall operation of the
                  organization, although a direct relationship to any particular
                  cost objective cannot be shown.

                  b.     Any cost allocable to a particular award or other cost
                  objective under these principles may not be shifted to other
                  Federal awards to overcome funding deficiencies, or to
                  avoid restrictions imposed by law or by the terms of the
                  award.

   OMB Circular A-122, §4. Allocable costs.

           It is clear that the definition does not require any degree or quality of
   performance of the grant to be considered allocable; rather, what is necessary is
   that there is a connection or relationship to the grant. The “benefits received”
   element of § 4(2) is often the critical focus of the inquiry. A U.S. Court of Claims
   decision considering the definition of allocability in the narrower procurement
   contract cost context, explained that

                  The requirement of “benefit” may have a more or less
                  general scope depending upon the type of expense. Also,
                  the scope may be conditioned by policy considerations . . .
                  [The regulation] allows allocation if the cost “benefits both

FCH1 #10142 v1                                 10
                  the contract and other work” . . . or "is necessary to the
                 overall operation of the business" [§ 4(3)]. . . These
                 conditions are in the disjunctive, but for certain costs, they
                 feed back and should be read as complementing each other.
                 For example -- franchise taxes are necessary to the overall
                 operation of the business if their payment is a prerequisite
                 to “doing business.” The obvious benefit results from this
                 fact. Additionally, as a matter of policy, it is fair to spread
                 such a tax around to all customers . . . Again, benefit
                 follows from the broad necessity, and no burden is imposed
                 on the contractor to prove a specific relationship to the
                 contract. . .

   Lockheed Aircraft Corp. v. U.S., 375 F.2d 786 (Ct.Cl. 1967) (emphasis supplied).

           Additionally, the I.G.'s views with respect to MBELDEF's costs and related
   justification and support needlessly obscures and otherwise ignores several
   significant points. First, and foremost, MBELDEF was not a “contractor” but
   rather a subgrantee. Thus, the I.G.'s reliance on traditional procurement rules is
   misplaced. Moreover, MBELDEF's budget and costs were included in the original
   grant proposal by NAMC where the relationship between the two organizations for
   performing the grant was detailed. (A copy of this proposal, containing
   MBELDEF's budget and rates is attached as Exhibit A.) EPA’s acceptance of the
   grant proposal was without reservation. With the full disclosures and acceptance
   by EPA of the costs and nature of the MBELDEF work, the I.G.'s concerns are fully
   put to rest.

           In the present case, NAMC does not look to a release of withheld grant
   funding. The various extensions of the project period and changes in the work
   clearly suggests that there was no particular deadline for the final completion of the
   grant. Allowing the completion as outlined below will not adversely affect any EPA
   program or policy initiatives. In fact, completion would only serve to achieve the
   goals and expectations of this grant.

   SUMMARY RECOMMENDATION BY NAMC

          The objective of the OPEX grant is to increase identification and access of
   contracting opportunities to small and disadvantaged contractors in the
   environmental services area. The effort was to be in concert with NAMC's activities
   in environmental training of small and disadvantaged contractors and would
   determine support requirements and innovative approaches to increasing contractor
   access, as well as raise the level of public awareness and knowledge of
   environmental contracting opportunities. This objective was deemed important
   enough for the House Appropriations Subcommittee to earmark funds in FY 1995

FCH1 #10142 v1                                11
   for its implementation. In the more than three years that have transpired, in the
   wake of the Adarand decision, Federal agencies have had to modify and adapt their
   small and disadvantaged business programs to Adarand's narrow tailoring
   mandate. As a result, the objective of OPEX has become increasingly important as
   opportunities for contracting have diminished significantly.

           In addition, because of cutbacks in grant funding and a leveling off of
   membership funds and other means of support, NAMC and MBELDEF are in
   precarious financial positions. Both organizations are working diligently to improve
   negative fund balances, while continuing to provide the legal assistance, training
   and other services that their constituencies need and deserve in this more
   challenging contracting environment. Having to absorb the level of indebtedness
   suggested by the IG Draft Report, without the opportunity to complete the work and
   mitigate the financial exposure, would effectively immobilize these organizations
   and deprive the minority contractor community of two of its most vocal advocates
   and service providers. Between them, NAMC and MBELDEF have over 50 years of
   dedicated service to minority business development. They were chosen for this
   OPEX effort because the objective of OPEX coincides with the missions of these
   organizations. The public good would be therefore ill-served if they are deprived of
   the opportunity to work out of the situation with OPEX through completion of the
   grant tasks.

           Therefore, NAMC respectfully requests that the IG recommendation include
   the opportunity for NAMC to complete the remaining work as outlined in these
   comments. Although no additional EPA funds would be required, completion of the
   work would involve the active participation of the EPA/OSBDU office, especially in
   identifying the states for the remaining compliance reviews, the regions and states
   for the remaining needs assessments, and the locale for the remaining conference.
   Once these sites have been identified and regional and state approvals are obtained
   to go forward, we would be able to complete all remaining tasks and present the
   reports on this work within a 90-day period.

   SPECIFIC IG FINDINGS, COST QUESTIONS AND NAMC RESPONSES

         The specific items of costs questioned in the Draft Report are addressed
   below. The Draft Report findings and explanation are set forth in italics, with the
   NAMC response following.

   Deliverables

          (See Background discussion on work completed, work remaining and reasons for
   delay in completion.)




FCH1 #10142 v1                               12
   Conferences

           The IG Draft Report questions the two hour participation of OPEX
   individuals in the two conferences that were held, as opposed to a full day of OPEX
   activity. The IG Draft Report fails to realize that these conferences were in fact full days
   or more and NAMC/OPEX staff were involved in the planning and logistics of
   the full conferences, including identifying other resources and identifying major
   environmental contractors with whom the minority contractors might meet to
   discuss possible contracting opportunities. The direct OPEX portion of the agenda
   was understandably brief because it merely involved outlining to the conference
   participants how the OPEX effort worked and how they might avail themselves of
   the individuals and resources that were assembled at the conferences. In addition
   to the overall planning, NAMC staff and Board members participated in other
   aspects of the conferences. For example, an NAMC Board member led the session
   on Partnering at the Hartford, Connecticut conference and his involvement and
   participation was a direct result of OPEX viewing partnering as an important
   aspect of minority contractors more effectively availing themselves of environmental
   contracting opportunities. In fact, after the Hartford conference, the OPEX Project
   Director received a letter from the EPA Regional Administrator commending the
   efforts of NAMC, highlighting the fact that over 200 individuals participated in the
   conference, and expressing a desire to work with NAMC in the future. (See
   November 6, 1996 Region I Administrator's Letter, attached as Exhibit B.)

   Value to EPA of Work Performed

          The IG Draft Report raises the issue of the utility of the state compliance
   review work performed for EPA if it is not in the form of a final report. Even in its
   interim stages, the state studies have had utility for EPA. For example, at
   OSDBU's Annual MBE/WBE Conference held on December 9, 1996, the
   NAMC/MBELDEF team was able to present findings from its first round of studies
   to OSDBU representatives from around the country. We also made a presentation
   on the political climate for MBE/WBE programs in the post-Adarand environment
   and provided a review of the revised EPA guidelines for state programs that these
   OSDBU representatives would be responsible for monitoring.

           Although the IG Draft Report acknowledges that four needs assessments
   were substituted for seven conferences as deliverables under the OPEX grant, the
   report does not acknowledge that the meetings that were held with regional EPA
   staff in Philadelphia and with regional and state environmental officials in New
   York constitute needs assessments in fulfillment of the task requirements.
   EPA/OSDBU representatives from these regions, as well as the EPA/OSDBU OPEX
   Project Officer were in attendance at these meetings. NAMC takes the position
   that these meetings were in fact the needs assessments in that discussions took
   place with respect to what the situation was in these locations, what issues were


FCH1 #10142 v1                                13
   important to enhancing small and disadvantaged contractor opportunity, and what
   options for support were available through EPA/OSDBU. In the case of the New
   York meeting, we were also able to report on the findings of state studies that had
   already been conducted under the grant as well as the experience in outreach and
   public awareness gained from the two OPEX conferences in which NAMC had been
   involved. The fact that no minutes or reports were written for those meetings does
   not impact the fact that they took place. As in the case of the conferences, the
   deliverable was the event itself and NAMC served as convener and facilitator for
   these meetings, thereby fulfilling its grant obligation in these two instances.

   NAMC Cost Sharing

           NAMC acknowledges that at the time the IG initiated its audit of OPEX no
   cost sharing dollars had been expended by NAMC or its sub-grantee MBELDEF.
   NAMC also acknowledges that the amount of cost sharing requirement under the
   grant was approximately $40,000. However, by June of 1998 when the last
   extension of OPEX was about to expire, there was no indication that EPA/OSDBU
   was dissatisfied with NAMC's performance, nor was there any indication that a
   further no-cost extension would not be granted. The EPA/OSDBU had on many
   occasions acknowledged that there were delays on the project that were outside the
   control of either EPA/OSDBU or NAMC/MBELDEF. This was the logic that had
   prevailed in the previous two extensions and the circumstances had not changed
   greatly as of June, 1998. NAMC/MBELDEF was in the process of completing the
   reports on three state studies and scheduling needs assessments for Mississippi and
   Alabama at the time of the EPA/IG audit. There was every indication that
   NAMC/MBELDEF would complete these state study reports, conduct the needs
   assessments and schedule the additional state studies, needs assessments and the
   conference that was required. NAMC was also aware that since direct EPA dollars
   under the grant had been exhausted, the cost sharing dollars of NAMC/MBELDEF
   would come into play at this point to help in covering labor, travel and other costs
   associated with completing the project. With cost sharing, there is no requirement
   that the grantee contributions spread over the life of the project and it is common
   practice for grantee contributions to be utilized at the end of grants after direct
   grant funds have been expended.

            1.   Personnel Costs:

            a.   $116,305 unsupported.

   We believe that for time sheets to show reasonable estimates of actual hours, the
   estimates should be made daily or shortly after the actual work is performed and
   should not be based on a predetermined, consistently applied percentage of the
   employee's time.



FCH1 #10142 v1                               14
   NAMC RESPONSE:

           The time sheets that were submitted to NAMC on a bi-weekly basis
   accurately reflect the daily work efforts on OPEX and other NAMC activities. Had
   the time been recorded on a daily basis as opposed to bi-weekly, our position is that
   there would be no difference in the time allocations for the given days. The time
   sheets accurately reflect annual leave, sick leave, holidays, etc., as well as time
   charged to the various NAMC projects and other NAMC activities. The vast
   majority of the labor charged under OPEX was for Samuel Carradine, OPEX Project
   Director. Contrary to the IG Draft Report, in examining the 64 time sheets in
   which Mr. Carradine had OPEX charges, there were daily variations in OPEX hours
   in 13 of the time sheets. In addition, for the remaining 51 time sheets, the OPEX
   levels of effort were the same each day for a given time sheet, but varied from one
   time sheet to the other, depending on the extent of OPEX activity, with a 4 hour
   daily effort being the most common (19 time sheets). NAMC therefore contends
   that $116,305 in personnel costs are supported by the time sheets.

           NAMC acknowledges that an estimated $116,305 in Personnel costs were
   deemed ineligible because the work has not been completed. It is our understanding
   that should the work be completed at no additional costs to EPA, these ineligible
   costs could then be deemed eligible.

            b.   $116,305 ineligible.

   This amount is considered ineligible because the costs were not reasonable or allocable
   in accordance with OMB Circular A-122. The Circular provides a cost is reasonable if
   it does not exceed that which would be incurred by a prudent person under the
   circumstances prevailing at the time the decision was made to incur the
   costs. Moreover, the Circular states that a cost is allocable to a grant in accordance
   with the relative benefits received. We do not consider it reasonable to pay NAMC
   the full authorized grant payments while they completed only a small portion of the work
   required by the grant.

            c.   $14,538 ineligible.

   In addition to these expenditures being ineligible for the reasons stated above,
   we also questioned $14,538 (1/8th of the personnel costs) as ineligible because NAMC
   employees were paid for a one-hour lunch during an eight-hour work day. A paid
   lunch was considered an employee benefit and the hours were billed directly to the
   NAMC projects. OMB Circular A-122 states that a cost is allocable to an award if it
   both, benefits the award and is necessary to the overall operation of the organization.
   We believe the lunch policy does not benefit the EPA grant and is not necessary for
   the overall operation of the organization.



FCH1 #10142 v1                               15
   NAMC RESPONSE:

           Of the $14,538 in personnel costs deemed ineligible because they represented
   paid lunch hours, the IG Draft Report does not reflect actual NAMC policy and practice.
   The NAMC Statement of Personnel Policy does not specifically speak to
   lunch hours but states unequivocally that the work week consists of 40 hours. It
   further states that there is a flexible work schedule with the work day to commence
   between 8:00 am and 9:30 am. (A copy of the relevant portion of this Personnel
   Policy is attached as Exhibit C.) In practice, each employee puts in 8 hours of work,
   exclusive of time taken for lunch. For example, an Administrative Assistant
   worked from 8:00 am to 5 pm and took a one-hour lunch. The OPEX Project
   Director generally works from 9:30 am to 6:30 pm and takes one hour for lunch. NAMC
   therefore contends that $14,538 should be reinstated as eligible costs under Personnel.

   Burden Rates

           For the three Fiscal Years in which there were OPEX costs, the provisional
   rates applied by NAMC were 25% for Fringes and 48% for Overhead. However, for
   each of these Fiscal Years, the actual rates based on end-of-year financial
   statements were somewhat higher. If actual rates are applied, the allowable
   personnel costs to NAMC under OPEX would increase. Calculations of these actual
   rates were provided to the IG by our accountant , but were not utilized in the
   subsequent calculations. NAMC requests that actual burden rates be utilized in
   calculating the loads on personnel for fringes and overhead.

   2.       Contractual Expenditures:

            a.    $340,667 ineligible.

                  (1).   $229,517. MBELDEF estimated that each state study would
                         cost $32,000 to complete. NAMC paid MBELDEF $325,517
                         although MBELDEF completed only 3 of the 10 studies required.
                         Therefore, we accepted $96,000 ($32,000 X 3) and considered the
                         remaining $229,517 as ineligible because the cost was
                         unreasonable and unallocable in accordance with OMB Circular
                         A-122.

                         In addition to completing only three state studies, MBELDEF
                         gathered data at another three states but had not compiled the
                         information into a report. Therefore, the cost was not allocable to
                         the grant because the raw data, in and of itself, does not benefit
                         the grant. In accordance with OMB Circular A-122, these costs
                         were considered ineligible.



FCH1 #10142 v1                               16
                 (2).   $18,735. The conference consultant was budgeted to receive
                        $18,000 or $1,800 per conference. NAMC paid the consultant
                        $22,335 although only 2 of the required 10 conferences were
                        conducted. Therefore, we accepted $3,600 ($1,800 X 2) and
                        considered the remaining $18,735 as ineligible. OMB Circular
                        A-122 states that a cost is allocable to a grant in accordance with
                        the relative benefits received. We do not consider it reasonable
                        that NAMC paid the conference consultant $22,335 to coordinate
                        two conferences, considering that $18,000 was intended to pay for
                        all ten conferences.

                 (3).   We considered the $92,282 paid to four consultants ineligible.
                        Two consultants were under contract for only part of the period,
                        and we determined that the consulting services provided were
                        generally not allocable to the grant. For example, one consultant
                        was paid $78,093 to provide legal services to NAMC. Originally,
                        the consultant completed time sheets. Then NAMC paid him
                        $2,000 every two weeks as a retainer. In total, the consultant was
                        paid $64,000 ($2,000 X 32 payments) in this manner. On 32
                        invoices the consultant indicated that 4% to 80% of his effort was
                        classified as “Other NAMC.” NAMC's Executive Director
                        explained these “Other NAMC” hours were not grant related and
                        were erroneously charged to the grant. We calculated that more
                        than $21,000 was mischarged in this manner. Additionally,
                        there was no support to show the remaining effort was allocable to
                        the grant.

                        For the remaining two consultants, there were no consulting
                        agreements executed between NAMC and the consultants as
                        required by OMB Circular A-122. Without the required
                        consulting agreements, NAMC had no support indicating what
                        consulting services were provided. In particular, we could not
                        determine what portion of the services, if any, were allocable to
                        the grant. The Circular provides that to determine the
                        allowability of costs, some of the relevant factors are:

                        Ë      Adequacy of the contractual agreement for the service
                               (e.g., description of the service, estimate of time required,
                               the rate of compensation, and termination provisions).

                        Ë      The nature and scope of the services rendered in relation
                               to the service required.




FCH1 #10142 v1                              17
                          Ë      The qualifications of the individual rendering the service
                                 and the customary fees charged.

                          In addition, the consulting costs are ineligible because NAMC
                          did not procure the consultants in accordance with 40 CFR 30.45,
                          which requires grantees to use and document in its procurement
                          files some form of cost or price analysis for every procurement.
                          Price analysis may be accomplished by the comparison of price
                          quotations submitted, market prices, and similar indicia. Cost
                          analysis is the review and evaluation of each element of cost to
                          determine reasonableness, allocability and allowability. When
                          procuring the consultants, NAMC did not consider cost or perform
                          a price analysis. Without a cost or price analysis, EPA has no
                          assurance that the consulting expenditures were reasonable and
                          allowable.

   NAMC RESPONSE:

            NAMC acknowledges that an estimated $229,517 in Contractual
   Expenditures were deemed ineligible by the IG Draft Report because the work has
   not been completed. However, we feel that credit should be given for the completion
   of an additional three state studies (the report for which will be sent to EPA shortly)
   at this time, leaving the ineligible costs for this category at $130,207 (utilizing an
   actual per study cost of $32,551.70 as opposed to the approximation of $32,000 in
   the IG Draft Report). It is our understanding that should the work be completed at
   no additional costs to EPA, these ineligible costs could then be deemed eligible.

           NAMC acknowledges that an estimated $18,735 in Conference Consultant
   costs were deemed ineligible because the work has not been completed. Once needs
   assessments were substituted for conferences, this consultant began to assist the
   OPEX Project Director in preparing for these needs assessments. Utilizing the
   parameter of $1,800 for each conference and $3,150 for each needs assessment
   (utilizing the 4 needs assessments for 7 conferences ratio), NAMC contends that
   $9,900 should be deemed eligible costs in this category since 2 conferences and 2
   needs assessments were conducted, leaving ineligible costs of $12,435. It is our
   understanding that should the remaining conference and needs assessment work be
   completed at no additional costs to EPA, at least $8,100 of these ineligible costs
   could then be deemed eligible.

           For the consultant that was paid $78,093, NAMC acknowledges that
   approximately $21,000 in charges were for “Other NAMC” activities. However,
   approximately 50% of the remaining $57,000 should be deemed eligible because the
   consultant performed useful work in support of the grant. In addition to participating in
   the initial planning for the grant, this consultant participated in the drafting of the state

FCH1 #10142 v1                                 18
   study survey materials, contributed to the presentation to OSDBU representatives in
   December of 1996, with a special emphasis on the legal and legislative fallout of the
   Adarand decision, and continued to monitor these issues in preparation for utilization in
   the compliance monitoring reviews, the needs assessments and presentation at OPEX
   conferences. The consultant personally presented the information at the Hartford
   conference and provided the Conference Consultant with a briefing for use during the
   Seattle conference. Using the parameters of work completion ratios that have been
   applied in the IG Draft Report and elsewhere in these responses, NAMC calculates that
   $28,939 of this consultant's costs should be deemed eligible. It is our understanding that
   should the OPEX work be completed at no additional costs to EPA, of the remaining
   $49,154 in ineligible costs for this consultant, at least $28,061 could then be deemed
   eligible. In addition, this consultant brought specialized knowledge of Federal
   procurement, affirmative action laws and legislation, and regulatory/compliance
   procedures to the grant that was cost-beneficial. Given this level of relevant capability,
   the consulting costs were deemed reasonable. Furthermore, the resumes and rates of the
   key consultants were presented to the EPA/OSDBU as part of the original NAMC
   OPEX proposal and their participation was implicitly accepted by EPA/OSDBU by their
   incorporating the NAMC proposal in total as the Scope of Work for the OPEX grant.

           For the remaining two consultants, their roles were to provide administrative
   support to OPEX. Administrative support was originally included as a personnel
   line item. However, it was determined that due to the fact that OPEX would not be
   an on-going effort beyond the grant period, this support would be contracted for. In
   one instance, a letter of agreement was presented to the individual consultant for
   signature and this letter indicated the fact that 50% of her administrative support
   was to be for OPEX. Subsequent payments to the consultant had cost allocations
   that reflected this percentage. Therefore, NAMC contends that approximately 50%
   of the OPEX-related costs of this administrative support be deemed eligible based
   on the level of work completed. It is our understanding that should the OPEX work
   be completed at no additional costs to EPA, the remaining 50% of OPEX-related
   costs for administrative support could then be deemed eligible.

                  (4).   NAMC mistakenly overpaid $133 to a hotel in connection with the
                         conference held in Hartford, Connecticut.

   NAMC RESPONSE:

            NAMC acknowledges the ineligible overpayment of $133 to a hotel.

            b.    $24,146 unsupported.




FCH1 #10142 v1                               19
   NAMC RESPONSE:

          At this time, NAMC acknowledges the unsupported costs of $24,146 in
   contractual expenditures. However, we are continuing to research the issue and
   hope, at some point, to be able to provide supportive documentation for these
   expenditures.

            NAMC did not provide receipts for these expenditures, as required by 40 CFR
            30.21.

   3.       Telephone Charges:

   NAMC RESPONSE:

           NAMC acknowledges the $1,487 in unsupported telephone expenditures.
   NAMC also acknowledges that an estimated $10,039 in Telephone costs were
   deemed ineligible because the work has not been completed. It is our understanding
   that should the work be completed at no additional costs to EPA, these ineligible costs
   could then be deemed eligible.

   We considered $1,487 of $21,565 incurred for telephone expenditures unsupported
   because NAMC did not provide receipts as required by 40 CFR 30.21. Moreover, we
   considered $10,,039 or 50% of the remaining telephone expenditures as ineligible
   because the costs were not reasonable and allocable in accordance with OMB
   Circular A-122. We do not consider it reasonable to pay NAMC the full authorized
   grant payments while they completed only a small portion of the work required by
   the grant.

   4.       Travel Expenditures:

            a.    $9,520 ineligible.

   [T]here was no indication how any of the following travel benefited the grant and thus
   were not allocable to the grant.

                  T      NAMC Conference                     $5,943
                  T      Oakland, CA                          2,662
                  T      NAMC's Corporate Lawyer                863
                  T      Brownfields Conference                  27
                  T      American Bar Association                25
                         Total                               $9,520

                  OMB Circular A-122 requires that travel costs must benefit the grant in
                  order for these costs to be allocable.


FCH1 #10142 v1                               20
   NAMC RESPONSE:

           Of the $9,520 in Travel expenditures that were deemed ineligible, NAMC
   contends that least $5,970 was directly beneficial to the grant. The $5,943 in
   NAMC conference costs covered the OPEX personnel who traveled to the conference
   to make a major presentation on OPEX for the more than 300 contractors in
   attendance. One of the acknowledged objectives of the OPEX grant is to “raise the
   level of public awareness and knowledge of environmental contracting
   opportunities.” Again, the reason NAMC was selected for this grant is that we have
   a built-in constituency that is prepared to avail themselves of these opportunities.
   Over the years, NAMC has trained and certified more than 3,000 minority
   contractors in various areas of environmental services contracting and it is this
   target group that we are attempting to reach as part of our OPEX efforts. The
   NAMC conference was a logical and opportune occasion for such outreach.
   Likewise, the OPEX Project Director was invited to attend a Brownfields conference
   and serve on a panel in order to provide an overview of NAMC's activities with
   EPA/OSDBU, including OPEX. Also in attendance at this conference were the now-
   Director of OSDBU and the OPEX Project Officer. The $27 in OPEX cost of this
   conference was a proportional allocation of expenses.

           NAMC contends that the $6,575 in unsupported travel be allowed because receipts
   for such travel were provided, the nature of the travel was indicated, and it was clear that
   the travel was related to NAMC OPEX activity.

            b.    $6,575 unsupported.

   NAMC did not maintain documentation such as travel reports, as required by 40 CFR
   30.21.

   5.       Other Expenditures:

            a.    $4,388 ineligible.

                  (1).   $4,192. When procuring a computer for $3,246, office furniture
                         for $524, and office supplies for $422, NAMC did not perform the
                         cost or price analysis required by 40 CFR 30.45. Instead, they
                         selected the vendors based on past experiences and
                         recommendations. Therefore, we considered these expenditures
                         as ineligible.

   NAMC RESPONSE:

         NAMC contends that $3,246 in a computer purchase deemed ineligible be
   allowed because the selection of the vendor was the result of a cost analysis that

FCH1 #10142 v1                               21
included comparing the computer cost from the ultimate vendor (Gateway) with
comparable direct mail vendors (Dell) and area retail stores (Office Depot, Staples).
In addition to having the best price, Gateway had far and above the best service,
with free, 24 hour toll-free technical support. In the case of office furniture and
office supplies, a similar cost analysis had been done prior to these purchases. The
office furniture purchase was for an additional desk that NAMC had already
determined was a quality product because it was the same as other office furniture
that had been purchased over the past several years. The Office Manager examined
various office furniture catalogues before purchasing from the least expensive
vendor. Likewise, office supplies were ordered in a similar manner. NAMC
therefore contends that $524 and $422 in office furniture and office supplies, respectively,
be deemed eligible under the OPEX grant.




                                             22
                          APPENDIX 2 - DISTRIBUTION

HEADQUARTERS

Office of Inspector General - Headquarters (2410)
Assistant Administrator, Office of Administration and Resources Management (3101)
Director, Office of Policy and Resources Management, OARM (3102)
Director, Office of Grants and Debarment (3901R)
Audit Liaison, OARM (3102)
Comptroller (2731)
Deputy Associate General Counsel, Finance and Operations Law Office (2377A)
Agency Audit Follow up Official (2710)
Agency Audit Follow up Coordinator (2724)
Audit Liaison, Grants Administration Division (3903R)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Associate Administrator for Communications, Education, and Media Relations (1701)


OTHER

National Association of Minority Contractors




                                          49                  Report No. 1999 - 00213
